Department of Homeland Security
   Ofﬁce of Inspector General


       U.S. Immigration and Customs Enforcement's 

              Management of 2005 Gulf Coast 

         Hurricanes Mission Assignment Funding





OIG-09-22                                    February 2009
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                          February 4, 2009

                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the United States Immigration and Customs
Enforcement’s (ICE’s) management of mission assignment funding from the Federal Emergency
Management Agency (FEMA). It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

We contracted with the independent public accounting firm of Regis & Associates, PC, to perform
the review. The contract required that Regis & Associates, PC, perform its review according to
guidance from the Office of Management and Budget and the Government Accountability Office.
Regis & Associates, PC, identified five areas where ICE’s management of the mission assignments
and funds could be improved. Specifically, ICE needs to: (1) enhance its procurement and contract
monitoring processes; (2) enhance its funds control processes; (3) ensure completeness and
availability of documentation supporting expenditures; (4) improve its management of accountable
property; and (5) improve its mission assignment reimbursement billing processes. Regis &
Associates, PC, is responsible for the attached, independent accountants’ report, and the conclusions
expressed therein.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS


                Independent Accountants’ Report on Applying Agreed Upon Procedures


Office of Inspector General
U.S. Department of Homeland Security
Washington, D.C.

We have performed certain agreed-upon procedures (the Procedures), as summarized in the
Objectives, Scope, and Methodology section of this report, related to mission assignment funding to
the U.S. Immigration and Customs Enforcement (ICE). These funds were allocated to ICE by the
Federal Emergency Management Agency (FEMA) for the 2005 Gulf Coast Hurricanes. This
engagement consisted of reviewing selected management activities for the 76 mission assignments to
ICE for Hurricanes Katrina (August 2005), Rita (September 2005), and Wilma (October 2005)
issued through March 31, 2006.

The Procedures, which were agreed to by the Department of Homeland Security Office of Inspector
General, Office of Emergency Management Oversight, were performed to examine the expenditures
made in executing the mission assignments, and to evaluate the management of the mission
assignment process from origination to closeout.

This agreed-upon procedures engagement was performed according to standards established by the
American Institute of Certified Public Accountants and guidance from the Office of Management
and Budget and the Government Accountability Office. The sufficiency of the Procedures is solely
the responsibility of the specified users of the report. Consequently, we make no representations
regarding the sufficiency of the Procedures, either for the purpose for which this report has been
requested, or for any other purpose. Our test procedures revealed internal control weaknesses in five
areas. These findings and the associated recommendations are presented in the Results of Review
section of this report.

We were not engaged to and did not perform an audit, the objective of which would be the
expression of an opinion on the specified elements, accounts, or items. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come
to our attention that would have been reported to you.

This report is intended solely for the use of the Department of Homeland Security Office of
Inspector General, Office of Emergency Management Oversight, and should not be used by those
who have not agreed to the Procedures and taken responsibility for the sufficiency of the Procedures
for their purposes.


Regis & Associates, PC




        1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
Table of Contents/Abbreviations 




Executive Summary .............................................................................................................................1


Background ..........................................................................................................................................2


Results of Review .................................................................................................................................4


A.   Procurement and Contract Monitoring Process ...............................................................................4 

B.   Funds Control Process .....................................................................................................................6

C.   Documentation for Supporting Expenditures ..................................................................................8

D.   Management of Accountable Property ............................................................................................9

E.   The Mission Assignment Reimbursement Billing Process............................................................12 


Management Comments and OIG Analysis ……………………………………………………...15 


Appendices

Appendix A:         Objectives, Scope, and Methodology............................................................................16 

Appendix B:         Recommendations .........................................................................................................18

Appendix C:         Schedule of Questioned Costs.......................................................................................19

Appendix D:         Management Comments to the Draft Report ................................................................20 

Appendix E:         Report Distribution ........................................................................................................26



Abbreviations:

         DHS                     U.S. Department of Homeland Security 

         FEMA                    Federal Emergency Management Agency 

         FPS                     Office of Federal Protective Service 

         GAO                     Government Accountability Office 

         ICE                     U.S. Immigration and Customs Enforcement 

         OIG                     Office of Inspector General 

         OMB                     Office of Management and Budget 





                        ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Executive Summary 

Regis & Associates, PC, under contract with the U.S. Department of Homeland Security Office of
Inspector General, reviewed the U.S. Immigration and Customs Enforcement’s management
processes and internal controls for implementing Federal Emergency Management Agency (FEMA)­
issued mission assignments related to the 2005 Gulf Coast Hurricanes disaster relief efforts. FEMA
is authorized to task other federal agencies, including components within U.S. Department of
Homeland Security, with needed expertise to carry out specific disaster relief activities. Our
objective was to determine whether Immigration and Customs Enforcement had properly designed
and implemented management processes and internal controls over the funds it received for the
specific mission assignments.

The Office of Federal Protective Service did not always observe the time limits specified in mission
assignments in their vendor invoices and guard service billings for periods after the expiration of the
mission assignment were approved. We also identified instances in which vendors billed for guard
services prior to the mission assignment start date. We found no indication that the Federal
Protective Service had notified FEMA of the need to modify the mission assignment’s period of
performance, which is a critical factor for obtaining reimbursement of incurred costs.

Our tests of 91 expenditures totaling $52.9 million of the $82.2 million of incurred costs through
March 31, 2006, showed extensive missing documentation in support of vendor payments. Given
the extent of the dollars covered by this analysis, Federal Protective Service did not have effective
controls in place to assure the accuracy of payments on federal contracts.

Through March 31, 2006, Immigration and Customs Enforcement had billed FEMA $60.8 million
for costs incurred under the mission assignments. As of that date, Immigration and Customs
Enforcement had not yet provided the required supporting documentation, but had held discussions
with FEMA regarding additional needs. More data had been provided, but it was not formatted in a
manner that would allow FEMA to readily view data for the most recent monthly bill. Also, the bill
did not include sufficient information for some line-item costs to clearly describe what had been
purchased.




                                                                                                        1
                 ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Background

The Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act), signed into law
on November 23, 1988, is the statutory authority for most federal disaster response activities,
especially as they pertain to the Federal Emergency Management Agency (FEMA) and FEMA
programs. To make federal assistance under the Stafford Act available, states must initiate a request
for an emergency or major disaster declaration that is reviewed by FEMA for approval by the
President. The Stafford Act permits FEMA to anticipate declarations, and prestage federal personnel
and resources when a disaster that threatens human health and safety is imminent, but not yet
declared. FEMA cannot provide federal assistance until an emergency or major disaster declaration
is made.

The Homeland Security Act of 2002 (Homeland Security Act) created the United States Department
of Homeland Security (DHS) and realigned FEMA, previously an independent agency, as part of
DHS within the Emergency Preparedness and Response Directorate. In addition, the Homeland
Security Act and other Presidential directives established a new, unified, all-hazards framework and
plan for future responses to terrorism, natural disasters, special events, and emergencies. This plan,
referred to as the National Response Plan, which was revised and renamed the National Response
Framework in January 2008, establishes a comprehensive all-hazards approach to enhance the ability
of the United States to manage domestic incidents. The National Response Plan incorporates best
practices and procedures from incident management disciplines such as emergency management,
law enforcement, firefighting, public works, public health, responder and recovery worker health and
safety, and emergency medical assistance, and integrates them into a unified structure. It forms the
basis of how the federal government coordinates with state, local, and tribal governments and the
private sector during incidents, and establishes lead agencies for many different aspects of possible
disaster response.

U.S. Immigration and Customs Enforcement (ICE) is the largest investigative branch of DHS. ICE
was created in March 2003 by combining the law enforcement arms of the former United States
Immigration and Naturalization Service and the former United States Customs Service to help
enforce immigration and customs laws and to protect against terrorist attacks. ICE operates with a
workforce of nearly 15,000 personnel, including four law enforcement divisions and several support
divisions.

One of the law enforcement divisions, the Office of Federal Protective Service (FPS), was part of the
U.S. General Services Administration prior to being shifted to DHS, under the Homeland Security
Act. FPS has a continuing role within DHS to protect federal buildings and facilities throughout the
country. With authorized personnel of over 1,400 federal police officers, special agents, inspectors,
and administrative staff operating in 11 regions throughout the Nation, FPS provides security police
service for U.S. federal buildings and other properties administered by the U.S. General Services
Administration, DHS, and other properties as authorized. FPS augments its protective services
through the use of more than 15,000 contract guards.



                                                                                                    2
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Aside from its ongoing roles in providing protective services for government facilities and special
events, as authorized, ICE and its component organizations have a supporting role under the
National Response Plan. ICE’s responsibilities under the National Response Plan are an extension
of its ongoing mission. One of the 15 primary response activities under the National Response Plan,
Emergency Support Function #13, involves integrating federal public safety and security capabilities
and resources to support the full range of incident management activities associated with potential or
actual Incidents of National Significance. Emergency Support Function #13 is generally activated in
situations requiring extensive assistance to provide public safety and security, and where state and
local government resources are overwhelmed or are inadequate, or in preincident or postincident
situations that require protective solutions or capabilities.

ICE receives annual appropriations for carrying out its baseline mission. In addition, FPS finances
its operations by charging fees for security services provided to other agencies. FPS’ charges
include:
                �	 Basic security fees approved by Office of Management and Budget (OMB)
                   annually and charged to all building tenants that it protects, based on square
                   footage;
                �	 Building-specific fees, based on specific security requirements for particular
                   buildings; and
                �	 Fees for activities other than the items listed above that are specifically ordered by
                   agencies. One example of the third type of fees is the requirement reflected in
                   mission assignments from FEMA to carry out incident response initiatives under
                   the National Response Plan.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast states of Florida, Alabama,
Mississippi, and Louisiana with Category Three winds and torrential rains. By September 9, 2005,
Congress passed legislation that provided over $63 billion to DHS for disaster relief. As of
March 31, 2006, FEMA had assigned ICE 76 mission assignments with authority to incur costs up to
$252.8 million for safety and protection services. Of this amount, FPS was authorized
$216.4 million, through 66 mission assignments for services, including contract guard services to
buttress depleted and overworked police departments in the disaster area.

Under the provisions of the Stafford Act, ICE is authorized to seek reimbursement from FEMA for
eligible costs incurred during the performance of assigned missions. As of March 31, 2006, ICE had
requested and received $60.8 million from FEMA as reimbursement for costs incurred under mission
assignments.




                                                                                                       3
                 ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Results of Review
This section presents the results of our assessment of ICE’s internal control environment used to
administer mission-assigned tasks and funding, and our tests to evaluate mission assignment
procurements, expenditures, and supporting documentation for reimbursement billings.

Our results are presented sequentially, as ICE would have progressed in its planning and
administration of the 76 mission assignments, starting with organizing the effort and ending with
steps for obtaining reimbursement for costs incurred on FEMA’s behalf. In addition to interviewing
cognizant ICE management staff, we conducted extensive testing of transactions to assess initial
preparedness to implement the mission assignments; financial management system support available
and used; conformity of outlays with the mission assignment; controls over receipt, acceptance, and
payments for goods and services procured; asset accountability; and validity and support for
reimbursement claims to FEMA.

The basis for our test work was a detailed list of all mission assignment obligation, expenditure, and
reimbursement billing transaction activities through our March 31, 2006 engagement cutoff date.
For each aspect of our testing, we selected transactions that would allow us to cover a large
percentage of the dollars involved. Because our work was based on a combination of high-dollar
and judgmental sampling, the results are not statistically representative. However, due to the high
dollar coverage obtained and the types of internal control issues discussed throughout this report, we
believe that our test results reflect the management challenges faced by ICE. Appendix A includes
additional details on our objectives, scope, and methodology.


A. Procurement and Contract Monitoring Process
FPS had inconsistent procurement and contract administration practices. The procurement polices
and procedures implemented within each FPS region were not consistent among regions or ICE
headquarters. For example, FPS Region 4, one of the two main FPS regional offices overseeing
procurement activities related to the 2005 Gulf Coast Hurricanes, prepared either a new or modified
delivery order for each request for additional guard services. In contrast, FPS Region 7 used
Additional Service Request forms to order vendor services through existing contracts and support
the obligation of available funding in ICE’s financial management system, rather than executing a
new or modified delivery order. The use of separate contracting officers to negotiate and execute the
new contracts resulted in significantly inconsistent contract terms for similar services. Due to the
large volume of transaction processing and administrative functions associated with a large new
contract in Region 7, the procurement and administrative functions associated with other contracts
were delegated to another FPS region.

One of the large new contracts, executed for guard services in Region 7 allowed the billing of time
for guards who were awaiting assignment to posts (pool hours). We selected nine expenditure
transactions incurred in December 2005 that were submitted by this vendor for testing. The
supporting Forms 139, used to document a guard’s record of arrival and departure, were available
                                                                                                      4
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
for only two of the nine transactions. Pool hours incurred were 1,600 of the approximately 15,000
hours billed on these two transactions. Guard pool hours were not allowable under the other new
contract executed by Region 4.

We selected 68 procurement actions (i.e., new, modifying, or liquidating obligation transactions) for
testing during this review. This sample included 15 actions with obligations totaling $76.0 million,
which were procured through the execution of a post Hurricane Katrina contract, and 53 actions with
obligations totaling $15.3 million that were procured as an Additional Service Request.

Our testwork identified an instance where a contractor continued providing services upon the
expiration of the original contract term and before the execution of an extension. A contract in the
amount of approximately $33 million was executed in March 2006, with the period of performance
from December 2005 to March 2006. In several instances, billable guard services were incurred
prior to the execution of the requisition (G-514 form) and delivery order. Three of the 53 Additional
Service Request procurement actions, with gross obligations totaling $49,044, were for additional
services and only an email documented the orders. In addition, 30 of the 53 Additional Service
Requests for guard services were executed without specifying a performance period or mission
assignment.

ICE’s Contract and Acquisition Procedures identify the G-514 requisition requirements, which state
that once a cost estimate has been completed, ICE program personnel must prepare and fully execute
a G-514 requisition. These procedures require that the Office of Acquisition Management receive
the fully funded requisition at the onset of the acquisition process. Fully funded G-514 requisitions
are also required whenever funds are to be added or obligated by modification to an existing
interagency acquisition.

FPS did not adequately monitor contracts to ensure adherence to contract terms. One security
contractor’s employee, who was assigned and charged time to the contract, did not have a security
clearance as required by the contract. Also, guard service expenditures were being incurred prior to
the start of the mission assignment’s performance period. This included:

   �	 One contract where the mission assignment had a beginning date of October 28, 2005, but
      the period of performance on the invoice was from October 24, 2005 to November 13, 2005;
      and

   �	 One mission assignment had a beginning date of September 10, 2005, but the period of
      performance on the vendor’s invoice was from September 1, 2005 to September 30, 2005.

In one region, there were indications that documents supporting invoices were reviewed by the FPS
contracting personnel prior to making payments to vendors. Four invoices from one vendor
amounting to $2,671,211 were reduced by an FPS region’s Contracting Officer’s Technical
Representative by $195,295 because of the absence of supporting documentation (Forms 139).
However, the documentation supporting the computation of these invoice reductions was not
provided to us. Our review of the invoices of another large contractor in another region did not
                                                                                                       5
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
provide any indications that these invoices were reviewed prior to making payments to the vendor.
As a result of our inquiry of this management practice, we were informed that the invoice
documentation supporting hours worked was not consistently reviewed because of limited staffing
and an overwhelming amount of such invoices. Furthermore, our recomputation of the December
2005 invoice for one such contractor identified a potential over billing of $423,700 relating to the
accumulation and summarization of man-days. This amount has been questioned in this report.


RECOMMENDATIONS

We recommend that ICE:

   �	 Recommendation #1: Develop streamlined disaster procurement approval procedures that
      will allow for the standardized classification and recording of mission assignment response
      procurements.

   �	 Recommendation #2: Develop and implement monitoring procedures to ensure
      a) execution of mission assignments within the performance period and (b) adherence to
      contract requirements.

   �	 Recommendation #3: Develop and implement a system of internal controls to ensure that
      all vendor invoices are properly reviewed prior to payment.


B. Funds Control Process
Funds control policies and procedures for mission assignments at two FPS regions were not
consistent with ICE headquarters or DHS requirements. There were lengthy delays in recording
obligations associated with some contracts. Also, available records indicate that expenditures for
some mission assignments exceeded the amount authorized by FEMA. Overall, FPS did not have
accurate information on the status of funds provided, used, and eligible for reimbursement.

DHS requires its component agencies to have an effective funds control system to prevent
overspending and to ensure compliance with laws to control and help guide formulation and
implementation of federal fiscal policy. Specifically, this system should be designed to ensure that:

   �	 Funds are available prior to obligation;
   �	 Funds are obligated and expended solely for the purposes for which they were appropriated,
      except as otherwise provided by law;
   �	 Only valid obligations are recorded in the accounting records, and that all obligations
      incurred are recorded accurately and promptly; and
   �	 Obligations and expenditures are not authorized or incurred in excess of available funds or
      any legal or administrative limitations.

                                                                                                        6
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Approximately $33 million of obligations and expenditures incurred from January 2006 through
March 2006 were not recorded in ICE’s financial management system until after March 31, 2006. In
this particular case, FPS initiated a 4-month extension of an existing contract to increase the
authorized amount for armed guard services in support of Hurricane Katrina efforts in Louisiana.
Although the period of performance was from December 1, 2005, through March 31, 2006, the
contractor and the FPS contracting officer did not sign an amendment to the contract until
March 21, 2006, 10 days prior to the end of the extension period. In the interim, FPS did not record
obligations or expenditures incurred throughout this period in ICE’s financial management system.

FPS did not establish authorized amounts for each mission assignment in ICE’s financial
management system for the purpose of obligating amounts against total available funds. It also did
not record expenditures as they occurred, which would have avoided spending in excess of amounts
obligated or contracted for under multiple guard service agreements. In lieu of these control
mechanisms, FPS used separate, automated spreadsheets to track the funding status of mission
assignments. Although these spreadsheets did not represent official financial records, they
represented the degree of budgetary control in effect during the execution of mission assignments.
As a consequence of these ineffective budgetary controls, the following exceptions occurred:

   �	 Expenditures for a Region 4 mission assignment exceeded obligations by approximately
      $229,000;
   �	 Expenditures for a Region 7 mission assignment exceeded obligations by approximately
      $374,000;
   �	 Expenditures on another Region 4 mission assignment, incurred and reimbursed by FEMA,
      exceeded the recorded obligations by approximately $338,000; and
   �	 One mission assignment obligated in the amount of $88,000 resulted in the incurrence of
      $103,980 for expenditures related to surge funds. The excess amount of $15,980 was billed
      to FEMA in February 2006.

FPS officials said some of the overages identified above were probably attributable to errors in
recording expenditures to the correct mission assignments. For example, there may have been
changes to guard work assignments during the billing period that may not have been allocated
accurately among mission assignments. FPS said that the primary concern was ensuring that
aggregate mission assignment expenditures did not exceed total mission assignment funds provided.
Another justification was management’s representation that work is organized under security work
authorizations to include funding from several mission assignments and nonmission assignment
funding sources in order to focus on the overall security challenge. Nevertheless, under budgetary
control concepts, charges to each mission assignment are to be accurately allocated with a
reasonable basis for cost distributions.

ICE has designed a control environment that generally allows regional offices significant flexibility
in meeting mission objectives while tasking the headquarters financial management staff with
ensuring compliance with applicable federal financial laws and regulations. However, FPS delayed
the recording of obligations on mission assignment activity into ICE’s financial management
system. This practice negates the essential internal controls that are inherent in a budget system
                                                                                                        7
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
that ensures the recording of funds as soon as they become available, and obligations and
expenditures as soon as they are incurred. The recording of obligations and expenditures only when
they are required to facilitate payment of vendor invoices nullifies the value of effective budgetary
controls.


RECOMMENDATION

We recommend that ICE:

   �	 Recommendation #4: Record all mission assignment funding authority, and related 

      obligations and expenditures in its financial management system on a timely basis. 



C. Documentation for Supporting Expenditures
ICE did not have sufficient supporting documentation for approximately $5.4 million of the $82.2
million it had expended on the 76 mission assignments as of March 31, 2006. The lack of
documentation for transactions is a significant weakness in accountability for federal funds and was
a substantial portion of the $5.9 million that we considered to be questionable costs incurred by ICE
in carrying out the mission assignments. We identified the $5.4 million of unsupported costs by
testing 91 expenditure transactions totaling $52.9 million, approximately 64% of total ICE outlays.
Our Objectives, Scope, and Methodology in Appendix A provide the details on our sample selection.

We asked ICE to provide us the underlying purchase orders, invoices, and acceptance and receipt
documentation. We then analyzed the supporting documentation that ICE provided for each
expenditure transaction to determine whether it was sufficient to confirm that each was a valid
outlay. Based on this audit work, we concluded that 37 of the 91 transactions totaling about $5.4
million were not fully supported. In addition to OMB standards for maintaining documentation in
support of incurred expenditures, documentation evidencing all mission assignment expenditures is
required by FEMA for reimbursement.

We present the results of our work below, classified according to the related budget object class. For
each budget object class, we identify the number of transactions for which ICE did not provide
sufficient documentation and the amounts involved, which we consider to be questionable costs:

               �	 Other Contractual Services – supporting documentation was not provided for 1
                  of the 29 other contractual services expenditure selections. Questioned costs
                  totaled $327,520. ICE provided a general contract for multiple hotel rooms over a
                  certain period of time. However, no documentation was provided to ascertain
                  whether the rooms were ever used, and if so, whether they were used by personnel
                  authorized by ICE.



                                                                                                    8
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                  In addition, sign-in sheets (Form 139) used by FPS region contractors to
                  document billable time incurred (i.e., hours used to calculate billable man-days)
                  did not include a supervisor’s certification.

               �	 Travel and Transportation – supporting documentation was not provided for 7 of
                  the 16 travel and transportation expenditures selections. Questioned costs totaled
                  $527,565.

               �	 Personnel – supporting documentation was not provided for 3 of the 25 personnel
                  compensation expenditure selections. Questioned costs totaled $1,361.

               �	 Rent, Supplies, and Miscellaneous – supporting documentation was not provided
                  for 7 of the 11 rent, supplies and miscellaneous expenditure selections.
                  Questioned costs totaled $3,348,015. Of these,
                      - One exception in the amount of $94,400 was processed in ICE’s financial
                          management system as a reclassification for which no additional invoice
                          or other support was provided; and
                      -	 The other six items totaling $3,253,615 were processed in ICE’s financial
                          management system as overhead; however, no supporting documentation
                          for the overhead rate charged was provided.

               �	 Equipment – of the ten equipment expenditures selected for validation,
                     - Two appeared to have been miscoded, since the supporting documentation
                        provided showed travel and transportation costs for ICE employees; and
                     -	 Supporting documentation was not provided for five of the remaining
                        eight items, totaling $1,238,355.

The result is a total of $5,442,816 of questioned costs resulting from unsupported expenditures.


RECOMMENDATION

We recommend that ICE:

   �	 Recommendation #5: Develop and implement a system of internal controls to ensure
      appropriate receipt, approval, and retention of supporting documentation.


D. Management of Accountable Property
Property acquired by ICE to conduct mission assignments is subject to the requirements of FEMA
Manual 6150.1, “FEMA Personal Property Management Program” and DHS Management Directive
1120, “Capitalization and Inventory of Personal Property.” Collectively, this guidance requires
accounting for accountable property with an original acquisition cost of $15,000 or more, that by
                                                                                                      9
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
its nature is not expendable or consumable,1 and the capitalization of property with acquisition costs
equal to or exceeding $50,000. These guidelines require that all accountable and capitalized
property, acquired with mission assignment funding, be tracked from its acquisition and use during
an agency’s disaster field response through either its transfer to FEMA or its disposition.

Depending on the nature of the item and its cost, property purchases are required to be recorded as
capital items, or controlled because of their sensitive nature or risk of loss. ICE’s personal property
capitalization threshold is consistent with DHS’ policy to account for all highly sensitive property
and all serialized property, and to capitalize property with a value of $50,000 or more.

FEMA’s “Personal Property Management Program” manual documents the procedures and internal
controls needed to successfully ensure accountability for property during disaster responses. As
documented, disaster field command location receiving processes should include:

    �	 The receiving location obtaining advance notice of ordered goods and their anticipated
       arrival date;
    �	 The status and quantity of received goods being verified at the time of receipt by individuals
       with receiving responsibilities;
    �	 Evidence of the received property’s status and quantity forwarded to the office responsible
       for vendor payment; and
    �	 Ensuring received property is recorded in an asset tracking system that enables the field
       command location to continually track the property location; to whom, if anyone, the
       property is currently assigned; and its serviceability.

The implementation of these processes provides an organization with the internal controls that help
ensure the recording of the type and quantity of procured goods received by the field command
location, that vendor payment is valid, that they maintain accountability over property, and that
property meeting DHS’ capitalization criteria is completely and accurately presented in the
organization’s financial management system.

Of the 91 items selected for testing, ICE identified 10 transactions as purchases of property.
However, ICE could not provide evidence of the receipt of the property acquired. Our analysis of
available documentation determined that eight of the ten transactions identified as equipment
purchases amounted to approximately $1.3 million. This analysis further revealed that the other two
transactions appeared to be incorrectly coded, since the supporting documentation provided showed
travel and transportation costs for ICE employees. In substantiating the validity of equipment
purchases, we requested:


1
  Accountable property also includes sensitive and serialized property items. DHS defines sensitive property as
accountable property (regardless of original acquisition cost), that is highly susceptible to misuse, loss, or theft, such as
pagers, cellular telephones, electronic test equipment, personal computers, thumb drives, or any other storage device that
may contain proprietary government information and will be individually accounted for and controlled through the
agency’s property management system. Serialized equipment includes equipment with a manufacturer’s serial number
such as mechanical tools and miscellaneous data processing hardware that is not classified as sensitive property.
                                                                                                                          10
                    ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
    �	 A detailed list of items supporting expenditures, including journal vouchers;
    �	 Vendor invoices, with any attachments, detailing the expenditure amounts incurred including
       a description of the delivered equipment;
    �	 Evidence of the equipment’s inspection and receipt;
    �	 Evidence of payment approval;
    �	 Either current or prior evidence of the equipment’s inclusion in an ICE’s property accounting
       system;
    �	 The current status of the equipment; and
    �	 Evidence of the equipment’s disposition, if applicable.

We received limited information on three of the eight property transactions with reported cost of
$25,571. Because these equipment items were determined to be sensitive or serialized, they should
have been accounted for in ICE’s property management system, regardless of the cost. We were not
provided with documentation relating to the other five property items and were unable to determine
whether those items met the accountable property criteria. We were not provided with information
regarding the serviceability or location of the eight property items, or whether they were returned to
FEMA at the conclusion of mission assignments as required by its “Mission Assignment Billing and
Reimbursement Checklist.”2 It is important to maintain information on the current status of property
items for several reasons: to know the quantity available, where it is located; whether it has been
issued; and if so, who has responsibility for its use and possible loss.

ICE did not adequately account for property acquired with mission assignment funds, including
nonperformance of post disaster physical inventory and undocumented accountable property
disposition. These conditions have resulted in the identification of questioned costs for expenditures
that do not comply with DHS’ accountable property criteria. The questioned costs are addressed and
quantified in Section C of this report.


RECOMMENDATIONS

We recommend that ICE:

    �	 Recommendation #6: Identify and train Accountable Property Officers and other staff who
       have primary and secondary responsibilities for implementing the field office asset tracking
       operating procedures.

    �	 Recommendation #7: Determine the extent that billings for reimbursement from FEMA
       included cost of accountable property items that were not turned over to FEMA, and either
       forward acquired and reimbursed accountable property items to FEMA or refund the
       associated amount.

2
  Requirements established by FEMA for supporting documentation and reimbursement transactions on their website
(http://www.fema.gov/government/billinst.shtm) as referred to in the Financial Management Support Annex of the
National Response Plan (page FIN-5).
                                                                                                                  11
                  ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
      �	 Recommendation #8: Implement a hand-receipt process for the issuance of accountable
         property from inventory at disaster sites.

      �	 Recommendation #9: Require all individuals who are unable to locate an issued
         accountable property item to document the item’s disposition (i.e., lost, stolen, damaged,
         etc.) and obtain approval from the applicable Accountable Property Officer.


E. The Mission Assignment Reimbursement Billing Process
ICE has standard operating procedures for processing interagency billings through the Intra-
Governmental Payment and Collection System.3 However, these procedures did not cover FEMA’s
more extensive requirements for documentation on billings associated with mission assignments.
ICE’s initial billings for reimbursement under mission assignments did not include adequate
supporting documentation. Based on subsequent discussions with FEMA, ICE prepared and
submitted additional documentation that FEMA described as still not adequate.

As the steward of the Disaster Relief Fund, FEMA has the authority to specify the supporting
documentation requirements for all federal agencies providing support and requesting
reimbursement from the Fund.4 Under the standard “Intragovernmental Business Rules,”5 the
ordering and performing agencies agree to the form and content of the performing agency’s
documented evidence of performance to be provided in support of Intra-Governmental Payment and
Collection System6 transactions. Generally, the agreed-upon form and content includes the
information necessary to identify the transaction, its associated interagency agreement, and the
charges by budget subobject class. Due to the debilitating impact of disaster response activities on
normal agency internal controls, FEMA augmented its supporting documentation requirements to
address the increased risk of internal control weaknesses that often occur during the life-saving and
life-sustaining rescue and support operations involved with disaster responses. In addition to
information necessary to identify a transaction and the associated mission assignment, FEMA
requires the following:

      �	 Description of the goods received or services provided;

3
  The Intra-Governmental Payment and Collection System’s primary purpose is to provide a standardized interagency
fund transfer mechanism for Federal Program Agencies. The Intra-Governmental Payment and Collection System
facilitates the intra-governmental transfer of funds, with descriptive data from one agency to another.
4
    National Response Plan, Financial Management Support Annex, page FIN-5
5
  OMB Memorandum M-03-01, “Business Rules for Intragovernmental Transactions;” Treasury Financial Manual,
Volume I, Bulletin No. 2007-03, “Intragovernmental Business Rules;” and Treasury Financial Manual, Volume 1,
Part 6, Chapter 4000, “Intra-Governmental Payment and Collection System”
6
  The Intra-Governmental Payment and Collection System’s primary purpose is to provide a standardized interagency
fund transfer mechanism for Federal Program Agencies. It facilitates the intragovernmental transfer of funds, with
descriptive data from one agency to another.
                                                                                                                 12
                   ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
   �	 Breakdown of hours incurred in support of personnel services;
   �	 For indirect costs, the percentage applied and a description of the costs included in the cost
      pool;
   �	 For contract services, the contract number, vendor name, total contract cost, and a description
      of its purpose;
   �	 For property acquisitions:
      - A description of item, vendor name, and unit cost for all nonexpendable or sensitive
          items greater than or equal to $1,000 and
      - The return of all items described above or an agreement to waive this requirement;
   �	 For property leased, a description of the item, vendor name, and unit cost;
   �	 Identification of motor vehicle costs;
   �	 Identification of costs subtasked to another agency; and
   �	 All “Other Costs” defined.

ICE financial management personnel said they had not developed plans for producing the additional
data. As a result, ICE prepared supporting documentation for FEMA in the same manner it would
have prepared for reimbursement under any other interagency agreement. ICE created unique
identifying numbers in its financial management system for each mission assignment and segregated
its incurred costs accordingly. ICE also used its financial management system’s integrated
reimbursement bill generation process to extract all previously unbilled transactions, as recorded in
its system, consolidate them by mission assignment agreement number, and summarize them by
budget object code on a monthly basis.

We reviewed 24 of the 127 billings, amounting to $55.1 million of the $60.8 million that ICE had
submitted to FEMA for reimbursement through March 31, 2006. In response to our request for the
supporting documentation for reimbursement billing packages submitted to FEMA (for the purpose
of assessing its compliance with FEMA’s requirements), we were provided with the report that is
generated during the automated reimbursement billing process. This report contained a detailed list
of the expenditures included in each mission assignment reimbursement bill by unique accounting
elements, including all programs associated with each mission assignment.

For the 24 billing transactions tested, we noted that:

   �	 None included evidence of a Certifying Official’s approval of the reimbursement bill, as
      required by FEMA;
   �	 Three were submitted 90 days or more after the mission assignment performance end date;
   �	 Nineteen did not state the period of performance; and
   �	 Four of the six that included personnel cost did not identify overtime labor with the 

      breakdown of hours. 


Therefore, we were unable to substantiate personnel costs billed to specific transactions with details
by hours worked.


                                                                                                    13
                 ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
In response to FEMA’s concerns that this data did not adequately address its requirements, ICE
provided additional information from its financial management system. However, in cases where
there was more than one billing for a mission assignment, the data was cumulative. This resulted in
an inability to determine which expenses were covered by the current month’s billing. In addition,
the data was not provided in sufficient detail to convey to FEMA the nature of the goods and
services purchased.


RECOMMENDATION

We recommend that ICE:

   �	 Recommendation #10: Develop and implement policies and procedures to ensure that the
      supporting documentation for invoices required by FEMA for billing are generated,
      organized, and detailed to clearly support each bill.




                                                                                                 14
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Management Comments and OIG Analysis

The U.S. Immigration and Customs Enforcement concurred with all the recommendations we
offered to improve its management of mission assignment funding from the Federal Emergency
Management Agency. During the audit and after our fieldwork, the U.S. Immigration and Customs
Enforcement worked to improve its operations involving mission assignments. All
recommendations except recommendation 7 have been resolved and closed because they have been
implemented. We consider recommendation 7 resolved because steps have been taken to implement
it; however, this recommendation will remain open until it has been fully implemented. The U.S.
Immigration and Customs Enforcement will apprise us of its progress in implementing this
recommendation within 90 days. We will close this recommendation when the U.S. Immigration
and Customs Enforcement provides evidence that it has been fully implemented.




                                                                                             15
               ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix A
Objectives, Scope, and Methodology



DHS Office of Inspector General (OIG) contracted with Regis and Associates, PC, to assess the U.S.
Immigration and Customs Enforcement’s (ICE’s) mission assignment management and financial
management controls, and offer recommendations for any needed improvements. This effort is part
of the overall objective of the DHS OIG to ensure accountability in the management and expenditure
of funds for relief and recovery efforts relative to disasters.

The scope of this review includes the 76 mission assignments issued to ICE by FEMA for disaster
response assistance in the Gulf Coast region, resulting from Hurricanes Katrina, Rita, and Wilma
(2005 Gulf Coast Hurricanes); the management processes and financial management controls
applicable to these mission assignments; and the related contracts, expenditures, and reimbursement
billings for the period August 29, 2005, through March 31, 2006. Our review objectives were to
assess whether the management processes and financial management controls were properly
designed and implemented, and to determine whether the contracts used, expenditures incurred, and
reimbursements requested were authorized, valid, and appropriately supported.

These agreed-upon procedures were performed in accordance with standards established by the
American Institute of Certified Public Accountants and guidance from the Office of Management
and Budget, and Government Accountability Office (GAO).

We reviewed select reports published by DHS OIG and GAO reports concerning ICE’s 2005 Gulf
Coast Hurricanes mission assignment management to familiarize ourselves with prior
recommendations, regulations, and guidance applicable to ICE’s processes and controls. The results
of these reviews were incorporated into our risk assessment for this engagement and our reported
results.

The management processes and financial management controls assessment included information
gathering through interviews with appropriate personnel, as well as evaluating management controls
and process designs. These evaluations were done through review of current policies and
procedures, and those that existed during the 2005 Gulf Coast Hurricanes.

The determination as to whether the contracts used, expenditures incurred, and reimbursements
requested were authorized, valid, and appropriately supported included our review of supporting
documentation made available by ICE in each of these areas. We obtained a list from ICE of all
procurement, expenditure, and reimbursement billing transactions from its financial management
system for the period August 29, 2005, through March 31, 2006. These transactions were stratified
among procurements, expenditures, and reimbursement billing categories for the performance of test
procedures specific to each transaction category.

For our tests of procurements, we used a high-dollar criterion to select 68 procurements, representing
$91.3 million, or 77.6% of the $117.7 million total contract actions identified through
March 31, 2006.




                                                                                                   16
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix A
Objectives, Scope, and Methodology



For our tests of expenditures, we stratified expenditure transactions by budget object code into
categories with similar processes and controls. These categories are:

   �      Other contractual services and rent, communications, and utilities;
   �      Personnel compensation and benefits;
   �      Equipment;
   �      Supplies and materials;
   �      Overhead; and
   �      Travel and transportation of persons.

We used a high-dollar criterion within each category to select a total of 91 expenditures. The
following table provides an overview of expenditures incurred through March 31, 2006 and
selections for each of the above categories.


Table 1     ICE 2005 Gulf Coast Hurricane Incurred Expenditures through March 31, 2006, and Selections


                                                        Incurred      # of                           %
       Expense Category                             Expenditures   Selections   Selection Total   Coverage
       Other Contractual Services and
       Rent, Communications, and Utilities      $     58,829,617       29       $   47,542,505      80%
       Personnel Compensation and Benefits            14,467,441       25               40,023      1%
       Equipment                                       1,265,615       10            1,265,615     100%
       Supplies and Materials                            264,635        5              183,054      69%
       Overhead                                        4,177,442        6            3,253,615      77%
       Travel and Transportation of Persons            3,157,502       16              594,704      18%
                      TOTALS                        $ 82,162,252       91        $ 52,879,516      64%




When summarized transactions were selected, using the high-dollar value criterion, we made
additional judgmental selections and performed detailed tests on individual personnel and travel
expenditures within the summary transaction total.

For our tests of reimbursement billings, we used a high-dollar criterion to select 24 billings
representing $55.1 million of the total $60.8 million reimbursements requested through
March 31, 2006.

Our fieldwork was conducted from April 26, 2006, through February 9, 2007, and included visits to
FPS Region 4 in Atlanta, Georgia; FPS Region 7 in Forth Worth, Texas; the Debt Management
Center in Burlington, Vermont; and ICE and FPS headquarters in Washington, DC.




                                                                                                             17
                   ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix B
Recommendations



Recommendation #1: Develop streamlined disaster procurement approval procedures that will
allow for the standardized classification and recording of mission assignment response
procurements.

Recommendation #2: Develop and implement monitoring procedures to ensure
a) execution of mission assignments within the performance period and (b) adherence to contract
requirements.

Recommendation #3: Develop and implement a system of internal controls to ensure that all
vendor invoices are properly reviewed prior to payment.

Recommendation #4: Record all mission assignment funding authority, and related obligations and
expenditures in its financial management system on a timely basis.

Recommendation #5: Develop and implement a system of internal controls to ensure appropriate
receipt, approval, and retention of supporting documentation.

Recommendation #6: Identify and train Accountable Property Officers and other staff who have
primary and secondary responsibilities for implementing the field office asset tracking operating
procedures.

Recommendation #7: Determine the extent that billings for reimbursement from FEMA included
cost of accountable property items that were not turned over to FEMA, and either forward acquired
and reimbursed accountable property items to FEMA or refund the associated amount.

Recommendation #8: Implement a hand-receipt process for the issuance of accountable property
from inventory at disaster sites.

Recommendation #9: Require all individuals who are unable to locate an issued accountable
property item to document the item’s disposition (i.e., lost, stolen, damaged, etc.) and obtain
approval from the applicable Accountable Property Officer.

Recommendation #10: Develop and implement policies and procedures to ensure that the
supporting documentation for invoices required by FEMA for billing are generated, organized, and
detailed to clearly support each bill.




                                                                                                    18
                ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix C
Schedule of Questioned Costs



During our review, we observed the conditions listed below, which are discussed in detail in the
Results of Review section of this report. The following questioned costs were identified:

                     *
            Condition         Description                                                                     Amount

                 A            Unsupported/erroneous contractor billing costs                            $     423,700


                 C            Unsupported other contractual services                                          327,520


                 C            Unsupported travel and transportation                                           527,565


                 C            Unsupported personnel compensation                                                 1,361


                 C            Unsupported rent, supplies & miscellaneous                                    3,348,015

                  **
              C, D            Unsupported property and/or equipment                                         1,238,355

                                     TOTAL QUESTIONED COSTS                                           $     5,866,516
        * The “condition” refers to the lettered section of the report in which the questioned costs are described.

        ** These questioned costs result from property acquisitions for which no supporting documentation was provided. The
        items making up this questioned amount also include the additional condition of accountable property not being properly
        accounted for in the property management system or returned to FEMA after conclusion of the mission assignments.




                                                                                                                              19
                   ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         20
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         21
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         22
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         23
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         24
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to the Draft Report




                                                                                         25
             ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix E
Report Distribution




             Department of Homeland Security

             Secretary
             Deputy Secretary
             Chief of Staff
             Deputy Chief of Staff
             General Counsel
             Executive Secretary
             Director, GAO/OIG Liaison Office
             Assistant Secretary for Office of Policy
             Assistant Secretary for Office of Public Affairs
             Assistant Secretary for Office of Legislative Affairs
             Assistant Secretary, U.S. Immigrations and Customs Enforcement
             ICE Audit Liaison

             Administrator, Federal Emergency Management Agency
             Assistant Administrator, Disaster Operations Directorate, FEMA
             FEMA Audit Liaison

             Office of Management and Budget

             Chief, Homeland Security Branch
             DHS OIG Budget Examiner

             Congress

             Congressional Oversight and Appropriations Committees, as appropriate




                                                                                          26
              ICE’s Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
